ORIGINAL

20°15 90
In The
Supreme Court of the United States

FILED
NAY 0 4 2021

AUDREY L. KIMNER
Petitioner,

v.
CAPITAL TITLE OF TEXAS, LLC; KEVIN G. LONG; BILL SHADDOCK,
CEO; NICHOLE BAKER; DONALD LEE MCCLAIN;
JEM ADVISORY GROUP, LLC; TANGLEWOOD CONDOMINIUM
OWNERS; FIRST RESIDENTIAL; CEASONS HOLDINGS, LLC;
MARGARET A. POISSANT; MICHAEL G.TAPP; BRADFORD W.
IRELAN; SARAH M. VIDA; CLAYTON R. HEARN

Respondents

On Petition For A Writ of Certiorari in the United States
Supreme Court of Appeals for the Ninth Circuit, San Francisco, CA

PETITION FOR A WRIT OF CERTIORARI

AUDREY L. KIMNER.
Petitioner, Pro Se
P.O. Box 1493
Carmel, CA. 93921
audrevkimnerl 0@amail.com

RECEIVED
MAY - 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

i
LIST OF PARTIES
The following is a list of all parties to the proceedings in the court below, as required by
Rule 24.1 (b) and Rule 29.1 of the Rules of the Supreme Court of the United States.

1. Audrey L. Kimner, Petitioner;
2. Capital Title of Texas, LLC;
3. Kevin G. Long, Esq.;
4. Bill Shaddock, CEO of Capital Title of Texas;
5. Nichole Baker, Capital Title Escrow Manager Officer;
6. Donald Lee McClain, Owner, JEM Advisory Group;
7. Tanglewood Condominium Owners Midrise Property Association, Inc.
8. First Service Residential, HOA Company;
9. Ceasons Holdings, LLC.;
10. Margaret A. Poissant, petitioners Ex lawyer;
11. Michael G. Tapp, Esq.;
12. Bradford W. Irelan, Esq.;
13. Sarah M. Vida, Esq.;
14. Clayton R. Hearn, Esq.

ii
QUESTIONS PRESENTED

1. Whether the California Federal District Court in San Jose and the Ninth Circuit Court of
Appeals intentionally and willfully deprived petitioner of all Rights under 18 U.S.C.§ 242
Equal Protections under the law, violations of the United States Constitution, including
two Bill of Rights as an assault victim during financial abuse, which the petitioner
requested in petitioners complaint and appeal. Does the Supreme Court find it
appropriate by law under the United States Constitution and Federal Civil Rule 60
and Civil Rule 59 to VACATE ALL orders and Mandate, as ALL orders conflict, error
of law, and reflect VACATED orders by Honorable Magistrate Nathanael Cousins, and
denied petitioners Rights under 28 U.S.C. § 636 (c) to deny a Magistrate judge by law
and request a United States District Court judge voted in by a President of The United
States.

2. Whether the District Court and Ninth Circuit denied petitioners First Amendment Rights
to be heard by failing to offer court time per the United States Constitution, and while this
case involves intentional Extrinsic Fraud.

3. Whether the District Court and Ninth Circuit failed to acknowledge multiple Federal
Crimes as in, Mortgage Fraud involving Fraud for profits, Conspiracy, Proven
Wiretapping, Forgery, Mortgage Wire Fraud, Forced Extortion and Robbery under the
Federal Hobbs Act, Obstruction of Justice, False Foreclosure and sell, Title Theft,
Tampering with Evidence concerning Real Estate financial documents after a fraud
closing and involving Extrinsic Fraud in both Texas and California Federal District
Courts.

4. Whether this case was ruled in error concerning proper jurisdiction in California Federal
District Court, therefore is not a Texas state case, nor frivolous, as orders omitted facts
of Federal laws after District Court Honorable judge Edward Davila viewed crucial
evidence, and while tampering with Federal defendants in this case and ruling with
VACATED orders of the Magistrate judge collectively.

5. Whether the District Court and Ninth Circuit judges intentionally ignored proven and self
admittance of Mortgage Fraud with profiting, willful and intentional Conspiracy involving
all respondents, and respondents admitting to premeditated obstruction of justice while
following through.

6. Whether the District Courts retaliated against petitioner by retracting a Forma Pauperis
after petitioner paid for the case fee in full by check, and after petitioner filed an appeal
in the Ninth Circuit Court of Appeals.

7. Whether the Federal orders should have been VACATED, as requested by petitioner,
and the California Courts failed to acknowledge the extended case time frame during a
global pandemic, intentional obstruction in this case as the petitioner had no control and
petitioner has Rights to a fast trial per Domestic Violence assault victim laws, including
Marsy's Law and Article 1 of the California Constitution under Financial abuse.

8. Whether the Federal District Courts in California failed to offer petitioner Proper
Procedural Due Process, failed to acknowledge No Due Process by respondents
while respondents created false and misleading statements in Court and Financial
Documents Under the color of law in Texas, and unlawfully obtaining petitioners
personal property, including Heirloom furniture against petitioners will in exchange for
commerce.

9. Whether the petitioner should be awarded a filed Default Judgement after serving all
respondents per the Ninth Circuit Court of Appeals Court Order TIME SCHEDULE
date, and the Ninth Circuit then failed to acknowledge a filed motion by petitioner for
a hearing to discuss prior to a final order and mandate against petitioners First
Amendment Right.

10. Whether the California District Court judge intentionally ignored Fiduciary Theft by Texas
respondent, Margaret Poissant, Esq., which was documented in the petitioners original
Federal complaint, and after the California District Court judge viewed
evidence of self admittance of Conspiracy and Fraud by this respondent who was running
for Judgeship in Texas at the time of the state case. This also involved respondents, Sarah
Vida, Esq and Tanglewood Condominium Owners, involving checks placed in
Margaret Poissant, Esq. name after the original checks were written in petitioner's name.

iii
TABLE OF CONTENTS
Pages
1. List of Parties
2. Questions Presented and Continued

ii

3. Table of Contents

iii

4. Table of Authorities and continued.............................................. iv
5. Orders attached............................................................................
Memorandum Filed March, 18, 2021, Mandate Filed April 09, 2021,
Petitioners motion to reconsider on April, 12, 2010, Order Denying Plaintiffs
Motion to Reconsider, Order Granting plaintiffs Motion to proceed Forma Pauperis
by Magistrate dated Nov. 21, 2019, Notice of Impending Reassignment to a United
States District Court Judge and Certificate of Service dated December,03, 2019,
Clerk’s Notice Resetting Case Management Conference following Reassignment
dated December 05, 2019, Copy of Complaint filed by petitioner filed on November,
18,2019 with all defendants listed and addresses of all defendants, Proof of hacking
into Petitioners Digisign with proven Forgery by Respondent in May 2017, Proof of
Conspiracy to commit Fraud ongoing with Respondents dated August, 09, 2018,
Proof of self admittance of owing petitioners money with interest on July, 17, 2017
with Capital Title of Texas’ COO, Tracy McMahon with all respondents copied on
petitioner’s property/ Midrise in Texas, Photo of Property with a price of $675,000. under
Appraiser Braden M. Hillman on the same sq. footage of condo # 310, Copy of fax
from Arizona for the property injunction and affidavit while property was under a
civil case, dated August, 22, 2018 , Copy of check concerning fiduciary theft,
Proof of letter to Mercedes Benz Financial to return petitioners car that was taken
under domestic violence financial abuse dated June, 19, 2020, Copy of invoice for
Texas mediation dated July, 05, 2018.
1
6. Summary
7. Opinions Below

2

8. Jurisdiction

3

9. Constitutional and Statutory Provisions Involved
10. Statement of Case with Facts of Law and Answers
11. Conclusion...............................................................................
12. Judges, Errors, Canon of Ethics and Reason for granting writ
13. Certificate of Length................................................................

4

5-16
17
17,18
19

iv
TABLE OF AUTHORITIES
Pages

1.

1

McDowell v Caldron, 197 F. 3d 1253, 1255 n. 1 ( Ninth Cir. 1999)

2. States v Fiorelli, 337 F. 3d 282 (3d Cir. 2003)

2

3. Potts v Lazarin, No. H044587, ( Cal. 6th Cir. 2020)

6,
6

4. United States v Throckmorton, 98 U.S., 61 (1878), Miller.
5. Scheidler v National Organization for Women, 547 U.S. 9, (2006)

8,9,13,14

6. Luis v Zang, No 14-3601, 6th Cir. Ohio, (2008)

8

7. Laura A. Eilers & Harvey B Silikovitz, 31 Am,
Crim. L. Rev. 703,704, (1994).......................

9

8. States vAguiller, 515 U.S. 593 (1995)

9

9.

10

Tanner v United States, 483 U.S. 107,128, (1987)

10. Dennis v United States, Tuohey, 867 F.2d 534, Ninth Cir. (1989)

10

11. Crandell v Nevada, 75 U.S. 35, Supreme Court 1868

11

12. United States v Santos, 128 S.Cir (2008), 4-1-4 Supreme Court

12

13. EEOC v Morgan Stanley and Co., Inc., 324 F. Supp. 2d 451, (2004)

13

14. Troxel v Granville, Pg 99-138, (2000)

14

15. Carey v Piphus, 8-0, (1978)

15

16. Bullock v BankChampaign, 569 U.S. _ (2013)

16

iv
TABLE OF AUTHORITIES CONT.

Penal Code § 32.45, Misapplication of Fiduciary Property or Financial Institution, (1) (B)
Business and Pro Code Section 6068 (e)
28 U.S.C.§ 1291
Fed. Rule 1.6
Rule 60
Rule 24, (3)
Rule 59, 3 and (e)
Rule Civ 6 (b)
The United States Constitution
Equal Protections Under the Law
Bill of Rights, Victims Bill of Rights
Marsy's Law, Article 1, Declaration of Rights
Conspiracy to Commit Mortgage Fraud
Extrinsic Fraud
Fraud Enforcement and Recovery Act, (FERA)
Model Rule 3.3 (c)

1
SUMMARY
Petitioner, Audrey L. Kimner respectfully request for review and acceptance of this Petition
for Writ of Certiorari in this case. Petitioner is pro se after being forcefully extorted out of
petitioners midrise during a time frame of assault victim financial abuse, and after petitioner
was forced to sell the midrise solely in petitioners name with a clear titile and up to date taxes.
This case is a Conspiracy to commit Mortgage Fraud, which is a Federal case, out of Texas
state jurisdiction, and after the death of the original hired counsel and after failure to fullfull
Fiduciary responsiblities with Fiducuary Theft. Petitoner filed a complaint and had shown proof
of self admittance of fraud and premeditated obstruction, along with new found evidence of all
respondents involved in a conspiracy. Respondents were tampering with evidence involving
petiitioners property, previliged documents and financial contracts with judge participaction.
Petitioner is discriminated against for being pro se while forced to be pro se involving abuse of
power to obstruct Federal Conspiracy to Commit Mortgage Fraud while violating petitioners
Constitutional Rights. The respondents have worked under the color of law with a state judge
and Margaret Poissant, esq while both were running for judgeship at the time of the state case,
and as personal friends against canons of ethics during both cases with no resolve. After an
unsuccessful mediation the petitioner has been vilified, bullied, harassed and threatened by
respondents across state lines to date and never offered petitioner Due Process, nor Procedural
Due Process. The state judge admitted personal issues with Mark Sandoval, Esq. in open court
as Honorable Steve Kirkland unlawfully released petitoners title, injunction and bond of
petitioners midrise and HOA account to a bankrupt LLC, and after respondents defaulted on an
unlawful lien and loan, theft of petitoners home contents and profited with leases not holding title
and without petitioners knowledge and consent. Petitioner request ALL orders and Mandate be
VACATED under Federal Rule 60 and 59 due to tampering, ongoing Conpiracy to commit fraud
to date, and ALL orders involve VACATED orders of a California Magistrate while ruling on two
cases collectively. Petitoners Federal case’s were not associated whatsoever, and all
respondents were involved in violating petitioners Constitutional Rights. Petitioner was
intentionally defamed by respondents, extorted and vilified, but respondents did not know that
petitioner had knowledge of the Federal laws that were broken in this Federal case, and
ongoing. All ill intent actions and behavior of the respondents were intentional, malicous, and
cruel with no professionalism, no resolve and no hearing, No Due Process, No Procedural Due
Process, nor canons of ethics followed, including Rule 4.1, Rule 1.6 and Business and
Professions Code section 6068 (e).

2
OPINIONS BELOW
Petitioner did not read or explain full orders due to knowing pettioner filed in the proper
jurisdiction, which the MEMORANDUM reflects from the Ninth Circuit Court of Appeals under 28
U.S.C. § 1291, including petitioner knowing all Orders reflect untruths with VACATED ORDERS
by the Magistrate judge. Also, the courts printed a false narrative online about the case while
this case was pending in the Ninth Circuit. The Memorandum states NOT FOR PUBLICATION,
Filed March 18, 2021 after submitted on March 16, 2021, not allowing Petitioner lawful time to
file by a 28 day deadline, including during a pandemic with no regard for petitioners Bill of
Rights as a victim of assault and financial abuse.
The MANDATE, dated March 18, 2021 reflects Defendants, AFTER the judge allowed most
DEFENDANTS out of the case prior to any hearing and case management hearing, which was
moved with no proper procedural due process, and against petitoners First Amendment Rights
in TX and CA.
Motion to Resconsider filed on April 12, 2021 proves the proof was sent to the District Court
Judge Davila with all defendents still in this case. The following order left only Margaret A.
Poissant who is now a judge, and has no immunity. Order Denying plaintiffs motion for
reconsideration and Defendents were later included back in March, 2020.
The Magistrate GRANTED FORMA PAUPERIS, and plaintiff PAID BY CHECK.
This was retaliation and unlawfull due to petitioner being allowed to file an appeal without any
further affidavit. The fee waiver is only allowed for an illegal immigrants, as a judge waived all
fees and SET ASIDE OUR CONSTITUTION. This is descrimination towards petitioner and a
pattern.
NOTICE OF REASSIGNMENT TO A DISTRICT COURT JUDGE, Dated Dec, 03, 2019, Clerk
RESETTING CASE, Dec, 05, 2019, File stamped proof, Dated Nov, 18, 2019 including ALL
DEFENDENTS, Proof of Forgery and Wiretapping of Digisigner, as this is not petitioners writing,
nor IP #. Emails of proof by respondents of self admittance of Fraud, knowingly, and threat of
obstructing the case, including FALSE information that pettioner did not work in good faith, and
the case was undercivil suit.
COO admitting to oweing petitoner money with interest, photo of the building,
proof of restraints, PERMANENT injunction by petitoner, Mediation proof, Fedex letter to
Mercedes Financial to have car replaced and check.

3
JURISDICTION
Petitioner has been a California resident since petitoner was forcefully extorted out of
petitioners midrise, and remained stranded in California. Respondants failed to wire petitioners
full amount owed to petitioner. The property was involved in a Mortgage Conspiracy to Commit
Fraud Scheme. The Texas judge refused to release the case vexatitous litigation and released
Petitoners Title unlawfully. Petitioner filed under Diversity and Federal question, as petitioner
has been deprived of Due Process, Procedural Due Process and Constitutional violations.
Petitioner found new evidence of Conspiracy. Constitutional violations under 28 U.S.C. 131,
provides “ The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, and treaties of The U.S. The complaint exist of a “pattern” with exclusive
Rights under (2) 47 § 227, and the Federal form reflects this diversity case under 28 U.S.C. §
1332, (a)(1), as Respondents live in Texas. The case should have been heard in District Court,
which now the Ninth Circuit agrees on jurisdiction under 28 U.S.C. § 1291.. As respondents
intentionally conspired under Model Rule 3.3 (c), which states a lawyer should “ refuse to offer
evidence that the lawyer reasonably knows is false.” The state of Texas sent petititoner new
evidence of another lien against the property, but the Ninth Circuit refused to allow petitioner to
have Proper Procedural Due Process, and First Amendment Rights to be heard.

4
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Deprivation of Rights under 18 U.S.C. § 242,
“ makes it a crime for a person acting under the color of law to willfully deprive a person of a
Right or privilege protected by the Constitution or laws of the United States”.
1.

Fourteenth Amendment, “ Due Process”, Procedural Due
Process,

“ No state shall make or enforce any law which shall abridge the privilege or immunity of citizens
of the United States; nor shall any state deprive any person of life, liberty or property without
due process of law; nor deny to any person within its jurisdiction the Equal protection of the
laws.”

Procedural refers to the constitutional requirement that when the federal government acts in
such a way that denies a citizen of a life, liberty, or property interest, the person must be given
notice, the opportunity to be heard, and a decision by a neutral decisionmaker. 2. (hearing) 758.

2. First Amendment,
“Congress shall make no law respecting an establishment of religion, or prohibiting the free
Exercise thereof, or abridging the freedom of speech, or of the press: or the right of the people
Peaceably to assemble, and to petition the Government for a redress of grievances”

3.

Eighth Amendment,

“ Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments conflicted.”

4. Sixth Amendment,
“ Rights to a fair trial.” Petitioner also has Rights under ADA Laws, Marsys Law and two Bill of
Rights for vicitms. Declaration under Article 1 in California includes twelve states to date and do
not allow for harassment and theft of awarded assets.

5
STATEMENT OF THE CASE WITH FACTS OF LAW

1. Whether the California Federal District Court in San Jose and the Ninth Circuit Court of
Appeals intentionally and willfully deprived petitioner of all Rights under 18 U.S.C.§ 242,
Equal Protections under the law, ignored violations of the United States Constitution,
including two Bill of Rights as an assault victim during financial abuse as requested by
law. Does the Supreme Court find it appropriate by law under the United States
Constitution and Civil Rule 59 and Civil Rule 60 to VACATE ALL orders and Mandate, as
ALL orders conflict, involves fraud, error of law, and reflect VACATED orders by
Honorable Magistrate Nathanael Cousins, and denied petitioners Rights under 28 U.S.C.
§ 636 (c) to deny a Magistrate judge by law and request a United States District Court
judge voted in by a President of The United States.

Petitioner respectfully request for the Supreme Court to offer relief while the California
Federal Courts ignored petitioners Rights, especially the First Amendment Right to
be heard. The California courts offered no relief or help, and refused to allow petitioner to
have court time to retrieve petitioner's own monies with interest owed by respondents. If
the California District Court had allowed petitioners First Amendment Right to be heard,
petitioner could have easily explained the Federal laws of this case, proper jurisdiction,
and moved forward Prior to a global pandemic. The laws below are under the California
Article 1 Declaration of Rights and the United States Constitution.

Article 1, section 32, 3 (4). “ Nothing in this subversion supercedes or modifies and
provisions of this Constitution, including the guarantees that a person may not deprived of
Life, Liberty, or Property without Due Process of Law, or denied Equal Protections of
Laws”, as provided in Section 7, Section 28 (14). “To prompt return of property when no
longer needed as evidence”. The entire section, under victim, as petitioner, (e) financial
abuse and victim means protection of the victim, including family members.

Civil Rule 60 allows a movant to make the following claims within one year of the
judgement: 1) mistake, inadvertence, surprise, or excusable neglect: (2) new
discovered evidence that, with reasonable diligence, could not have been discovered in
time to move for a new trial under Rule 59: (3) fraud, misrepresentation and error of law
or facts in the court's decision. See Me Dowell v Calderon, 197 F. 3d 1253,1255 n. 1 (9th
Cir. 1999), (Rule 59 (e) is available to “correct manifest errors of law or fact upon which
the judgement is based”.

6
Petitioner for Writ of Certiorari is filed within 28 days after the entry of judgment, and
prior, but the judges refused to offer relief or resolve. See Fed R. Civ 6(b), United
States v Fiorelli, 337 F.3d 282 (3d Cir. 2003).
United States Constitution, Deprivation of Rights under 18 U.S.C.§ 242,
“ Makes it a crime for a person acting under the color of law to willfully deprive
a person of a Right or privilege protected by the Constitution or laws of the
United States”.

Victims’ Bill of Rights: To be treated with fairness and respect for his or her
privacy and dignity, and to be free from intimidation, harassment, and abuse,
and the Right to a fast trial.

2. Whether the District Court and Ninth Circuit denied petitioners First Amendment Rights
to be heard by failing to offer court time per the United States Constitution, and while this
case involves intentional Extrinsic Fraud.

The United States Constitution, First Amendment,
“ Congress shall make no law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of the press; or the right of
the people peaceably to assemble, and to petition the Government for a redress of
grievances”.
The District Courts and Ninth Circuit Ruled in error of law, and petitioner was not denied
all court time. Petitioner also requested changes under Rule 60 and was denied. See
Potts v Lazarin, No. H044587 in Cal. (6th Cir. 2020) under the first Anti Slapp Law in
California.
Extrinsic Fraud is a legal term for an action or actions taken to prevent someone from
acquiring information or otherwise learning about their rights in certain circumstances.
The perpetrator usually engages in this activity to keep the victim from filing a lawsuit,
appearing in court, or getting a fair hearing. See United States v Throckmorton, 98 U.S.
61 (1878) U.S. Supreme Court, MR JUSTICE MILLER delivered the opinion of the court.

3.

7
Whether the District Court and Ninth Circuit failed to acknowledge multiple Federal
crimes, including Mortgage Fraud involving Fraud for profit, Conspiracy, proven
Wiretapping, Forgery, Mortgage Wire Fraud, Forced Extortion and Robbery under the
Federal Hobbs Act, Obstruction of Justice, False Foreclosure and sell, Title Theft,
Tampering with evidence concerning Real Estate financial documents involving a
fraud closing with Extrinsic Fraud in both Texas and California Federal
District Courts.

Mortgage fraud involving fraud for profit is prioritized by the FBI, is usually committed
by industry insiders who use their specialized knowledge or authority to commit or
facilitate the fraud. This fraud focuses on misusing the mortgage lending process to
get cash and equity from lenders or homeowners. Mortgage fraud for profit was used
in this case to misuse the mortgage lending process to steal cash and equity from the
Petitioner. Petitioner was kept out of all monies transactions intentionally as all
Respondents self admit to all and requested petitioner walk away or take ten thousand
dollars for a midrise that petitioner held full title, and the midrise is recently listed on the
market with Martha Turner Sotherby’s in Houston, Texas for approximately $700,000.
with all respondents knowingly using petitioners heirloom furniture and to profit as a rental
for profit while a fraud suit was filed with a bond and injunction in place. Petitioner was
forced out of the building with security and told not to be allowed back in the building even
though the petitioner still held title. Petitioner was left stranded in California in May 2017.

Conspiracy to commit Mortgage Fraud occurs when two or more people work together to
engage in the manipulation of financial markets or fraudulently induce investors to make
financial decisions. Respondents refused to allow petitioner to be involved in any
communications intentionally and after petitioner requested all numerous times, after
learning of a large lien place against the property without petitioners knowledge or consent.
Information was not known at closing time, and the petitioner learned after the closing.
There were many involved in this financial transaction, and all is self admitted by
petitioners ex counsel, and a return confirmation by another respondent. All were involved
and see attached emails for proof between both. There were emails of “ future business”
self admitted between counsel, Capital Title of Texas attorney and other respondents. This
happened to petitioner in another state after divorce, so petitioner knew the federal laws,
including hacking to change financial documents with omitted and missing at the time of
closing and new found evidence that counsel did not place on the record, nor would the
Texas judge take the proof intentionally, as he participated with multiple respondents
Unlawfully, including the mediator in Houston who could not close the case due to
bad faith litigation and cover ups. This is a federal crimes, which is why petitioner is
allowed in the California Federal Courts as this is the proper jurisdiction. Under 18 U.S.C.
§ 157, the Federal crime of Mortgage Fraud is committed when a person engages in a

8
Scheme to defraud during the mortgage application process, which all documents were
Fraudulent before, during and after close, even several years after across state line and
out of jurisdiction. The respondents also used the petitioners home in exchange for
Commerce for unwarranted legal fees, which is another Federal Crime under the Hobbs
Act Federal Law, 18 U.S.C. § 1951, Section 1951 proscribes conspiracy to commit
robbery or extortion without reference to the conspiracy statute at 18 U.S.C. § 371.
See Scheidler v National Organization for Women,547 U.S. 9, (2006)

Wiretapping and forgery was noticed by petitioner and petitioner gave the proof to
petitioner's lawyer, Margaret A. Poissantwho did not bring this forward. Petitioner is
knowledgeable about wiretapping and called digisign to have all logins sent to petitioner
from the petitioner's account. The account was hacked by the broker, respondent, Don
McClain. The log ins has his IP number, along with times and dates which were
changed, and Don McClain also changed the price and forged petitioners initials after
doing so. Capital Title of Texas then used the lowered price without petitioners knowledge
and consent to the changed price, therefore their company, respondents had intent
and prior knowledge of changes after the petitioners Fraud closing, which had no
witnesses present, except Don McClain and Nichole Baker, but later all
all Respondents conspired. Wiretapping is a Federal Crime under The Federal Wiretap
Act and Forgery is a felony and under Penal Code 115 PC in California for
Forged documents. The severity of these crimes, which is all intentional allowed
petitioner to file in California Federal court jurisdiction, so the recent Federal Orders are
not lawful, and are indeed an error of law by the California District Court and Ninth
Circuit Court judges. The Digisign login involves the Wiretap Act, a Federal law aimed
at protecting your privacy, and “ ANY’ interception and the communications of others
without the court's approval, unless one of the parties has given their prior consent. It is a
Federal crime to use or disclose any information acquired by legal wiretapping or
electronic eavesdropping. There is new case law on Wiretapping. See Luis v Zang, No.
14-3601, 6th Cir. Ohio, (2018). Those who commit forgery are often charged with the
crime of fraud. Documents that can be the object of forgery include contracts,
identification cards and legal certificates. Forgery is a Federal crime in all 50 states with
jail or prison time, fines, probation, and restitution (Compensating the victim for money
or goods stolen as a result of the proven forgery.

Mortgage wire fraud is a growing scheme to send fake wiring instructions. In this
Case the amount was changed, and when petitioner questioned the missing funds and
what transpired, Capital title of Texas and the broker refused to answer questions.
Petitioner found out months later that the funds were wired to Don McClain and
Michael Tapp, Esq. without my consent or knowledge, now respondents. Capital

9
Title of Texas stated they were not involved, but the company wired the monies to
the respondents without petitioners consent, knowledge and tried to cover it up. This is a
Federal crime and Capital Title of Texas refused to comply after self admitting to owing
petitioner a large amount of funds and interest, and acted belligerent to petitioner.
Respondents lawyer told petitioner to contact a lawyer for making statements that were
truth, so petitioner filed a lawsuit from California. To date the Respondent,
Kevin Longs, Esq. thinks it’s funny and Bill Saddock, CEO of Capital Title defamed
petitioner to witnesses. Under 941.18 U.S.C. 1343, Elements of Wire Fraud, (1) the
defendant voluntarily and intentionally devised or participated in a scheme
to defraud another out of money. Wire Fraud is punishable by imprisonment for 20 years, a
fine, or both. Fines under The Fraud Enforcement and Recovery Act, (FERA) enacted in
2009. The fine is $1,000,000. alone. See Laura A. Eilers & Harvey B. Silikovitz, Wire Fraud,
31 Am, Crim. L. Rev. 703, 704, (1994).
Forced extortion was committed by respondents by intentionally forcing petitioner out of the
building and making a threat to petitioner if security allowed petitioner in the building, and
Petitioner was told by security at the building that all guards were told to keep petitioner out
Of the building and petitioner was not allowed to enter the building to retrieve furniture, as
the Respondents allowed Don McClain to move into the midrise with no content insurance
against the respondent, Tanglewood Condo Owners own by laws. Petitioner was forced to
pay fees, taxes and property for years after extorted by forced out of the property while
Respondents rented the midrise for profit. Under 2403, the Hobbs Act Federal Law,
Extortion By Force, Violence and Fear, this case is Federal, not state. The petitioner
no longer had a Houston address, so the orders of the state judge are moot in Texas.
The Hobbs Act, 9-131.000 U.S.C.§ 1951, prohibits Robbery and Extortion affecting
interstate or foreign commerce. See, Scheidler v National Organization For Women,
547, U.S.9, (2006). Also Marsy’s Law in twelve states under victims financial abuse,
and return of property during this time frame, which was intentional by respondents.
Obstruction of Justice occured in both states, and the most common forms of Federal
Obstruction of justice is tampering with a witness, under 18 U.S.C.§ 1512, which also
Prohibits tampering with a victim or a government informant. This offense occurs when
a person knowingly interferes with the course of justice in order to protect someone else
or alter the outcome of a criminal case, as the order proves in California. In Texas,
respondents destroyed evidence to hide the original closing contract, refused to comply
to give petitioner any invoices, contracts to rent the property while petitioner held title, and
respondents requested petitioner not criminally charge respondent Don McClain after
mediation or settlement, but petitioner refused to sign off to their request and threats.
This entire case falls under the case law of obstruction of justice by respondents and
Judges for wiretap obstruction. See, United States v Aguillar, 515 U.S. 593 (1995).
Petitioner made all aware in the Federal complaint and posed letters to the case in
Texas of this Federal crime, as all respondents had knowledge of the forgery after
closing.

10
Title Theft, False sell and Foreclosure took place during a civil case in Texas and now to
date with new found evidence in California by Texas offering evidence of another false
lien in Texas by the state with false child support that the petitioner does not owe, no could
have owed. This MESS could not be resolved without a hearing for the petitioner, and two
cases were blended together by multiple orders with false information in court documents.
This also ruined the petitioners good credit, business and petitioner had to leave California
to drive to Texas to resolve, but also had petitioners car tracked and repossessed due to
Respondents harassing the petitioner and refusing to pay the money owed. Petitioner has
many witnesses and had to stay with a friend after spending thousands on hotel bills due to
bad faith litigation, and fraud. Title Theft, False Foreclosure and False sell is happening to
date, As the property should go back to petitioner by law, and the property is on the market
in Texas under what appears to be a false name. The false lien was never paid to South
Carolina respondents in the other federal case. The two cases do not have any connection
whatsoever, and all orders now conflict. Due to Title Theft, the petitioner has not been able
to pay taxes, and have any resolve due to obstruction and multiple federal crimes, along
with multiple violations of petitioners Constitutional Rights. Title Theft, False sell and False
Foreclosure while obstructing justice for four years all falls under the Hobbs Act Federal
Law, with rent skimming of a property that the respondents do not own with five or more
Properties within two years can now be prosecuted criminally, and Cal. Model Rule 4.1,
Truthfulness in Statements to others, Prohibits a Lawyer from making a false statement of
fact or law to a third, whether this rule was necessary as a rule of professional conduct in
California. Fraud conspiracy charges are distinct from standalone fraud charges. All
Respondents committed in agreement in writing of fraudulent activity, this qualifies as
Fraud Conspiracy. Conspiracy has a ten year statute, and the fraud is ongoing, as
Petitioner has been obstructed by all in this case and against oaths of office and canons
of ethics. See Tanner v United States, 483 U.S.107,128, (1987), and Dennis v United
States v Tuohey, 867 F. 2d 534, (9th Cir. 1989).

4. Whether this case was ruled in error concerning proper jurisdiction in California Federal
District Court, therefore is not a Texas state case, nor frivolous, as orders omitted facts
of federal laws after District Court Honorable judge Edward Davila viewed crucial evidence,
and while tampering with Federal defendants in this case and ruling with VACATED orders of
the Magistrate judge collectively.

11
Petitioner is a four year resident of California since the date the petitioner was extorted out of
the petitioners midrise condo while still holding title and after a fraud closing. Petitioner
filed a lawsuit immediately with a Texas lawyer and several years for the Texas judge
while several years later litigated under the color of law. This case involved multiple
respondents when the respondent filed in Texas civil court by Mark Sandoval, Esq. in Texas,
and later proved to be an ongoing issue in Houston per multiple lawyers. Petitioner knew with
new found evidence of laws and obstruction, petitioner is allowed to file a diversity case and
with federal questions in California District Court prior to petitioners' federal complaint. Pro se
status of petitioner has been used by Judges in California and Texas as a tool to discriminate
and intentionally harm the petitioner's future during financial abuse unlawfully. All
respondents knew the petitioner's situation and took full advantage of a family tragedy.

Please see Jurisdiction explained on page 4 for references and Rules 59 and 60 apply.
Under the color of law refers to Section 242 of Title 18 makes it a crime for a person
acting under the color of law to willfully deprive a person of a right or privilege protected
by the Constitution of laws of the United States. See Crandall v Nevada, 75 US 35,
Supreme Court 1868. Petitioner did not know how to file in civil state court, so petitioner
posted letters to the judge, requested a recusal and to close the case to move the case
to California to the proper jurisdiction and Steve Kirkland refused. Petitioner was hung up
on by the judge on a phone hearing, and multiple hearings took place with No Due Process,
nor returned emails to have a phone hearing by the clerk, which was intentional. Multiple
hearings took place months after both attorney’s were not on the case, and a self admittance
by respondent, Kevin Long, Esq. that no hearing was on the record that date going forward,
and never offered Due Process of law. The proof was given to the Ninth Circuit Court of
Appeals, which were never ruled on or acknowledged by law. Orders were clearly out of
Jurisdiction with No Due Process per the Fourteenth Amendment of the United States
Constitution, and was cruel, as all knew petitioners domestic assault and abuse situations.
The orders were so outrageous, no lawyer would take the case on in Texas, and were
shocked at the amount of motions, which were frivolous and abusive. One motion by
Kevin Long, Esq. was retracted by himself after the abuse was brought to his attention.
This week petitioner was sent an email from this respondent stating “ LOL", and “ this
case will never be heard”. He has told petitioner to “ move on”, as all placed petitioners
property with contents up for rent while under a lawsuit, and later a false foreclosure and sell.

12
5. Whether the District Court and Ninth Circuit judges intentionally ignored proven and self
admittance of Mortgage Fraud with profiting, willful and intentional Conspiracy involving
all respondents, and respondents admitting to premeditated obstruction of justice while
following through.
The proof is stamped “ received” in the Ninth Circuit, but petitioner is unaware if any of the
petitioners proof provided to the Ninth Circuit was ever placed on the record. Petitioner is
attaching three pages of the proof with the Orders of this petition to be reviewed. See
attached self admitted emails by respondents and please take note of the dates.
See United States v Santos, 128 S.Cir. (2008). In a 4-1-4 decision, the Supreme Court
held that the term “proceeds” in § 1956 refers to “ profits” and not gross receipts. Such
as this case and petitioners, the money that is paid to runners and other participants/
employees/ respondents, the activity does not amount to a transaction in proceeds,
because this money does not represent the profit. The respondents profited, rented
petitioners midrise and refused to give petitioner any amounts or charges for taxes
to obstruct mortgage fraud with profits. Respondents had no regard for petitioners
belongings and Heirloom furniture that petitioner uses for a design business

6. Whether the District Courts retaliated against petitioner by retracting a Forma Pauperis
after petitioner paid for the case fee in full by check, and after petitioner filed an appeal
in the Ninth Circuit Court of Appeals.
Petitioner paid in full by check # 8188 on May 14, 2020 and was sent a second affidavit
when the District Court had already verified the Forma Pauperis, which allows petitioner
to file an appeal in the Ninth Circuit. This is a pattern of retracting fees in petitioners cases
and with multiple Federal offenses, along with No Due Process or Procedural Due Process.
Multiple stays were placed on petitioners cases for no reason given, and told “ you should
have hired a lawyer and your case could sit here for a year” per the court staff attorney,
Stephanie. Now it appears to petitioner that this is retaliation for requesting court time
when court time was necessary and placed petitioner in harm's way, and without monies
of petitioner during a global pandemic when this could have been resolved in a five minute
hearing that was scheduled and changed four times without notice and ex parte.
Procedural Due Process Civil, Section 1. All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United States and the State wherein
they reside. No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States, nor shall any state deprive a person of life, liberty,
or property, without due process of law, nor deny to any person within its jurisdiction the equal
protections of the laws.

13
28 U.S.C. § 131 provides;
“ The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States”.
Note: Petitioner had monies, but funds were withheld against the Federal Hobbs Act Laws,
including Capital Title of Texas intentionally withholding Petitioners monies due to fraud and
theft. This is not frivolous, and in fact dangerous to petitioner and college age children
extorted in another state and during a global pandemic. See Scheidler v National
Organization for Women, 547 US 9 (2006).
Retaliation falls under 18 U.S.C. § 1513, Crimes and Criminal Procedures is retaliation
against a witness, victim or an informant. Forcing a litigant to depend on state monies
when the petitioner had funds and a home withheld is disingenuous, unlawful and cruel.
Petitioners witnesses would have been beneficial, but not allowed due to bias, pro se
status and retaliation. See EEOC v Morgan Stanley and Co., Inc. 324 F.Supp. 2d 451,
(S.D.N.Y. July 8, 2004). Gender and pro se dicrimination claims, the courts
recognition that defendants' criticisms of the proposed expert testimony were
more properly addressed to the weight to be given to the evidence, and not its
relevance or admissibility, applies with equal force in this harassment case. The
Federal Courts in California and Texas have been extremely abusive, biased and racist.

Forma Pauperis was used as a tool to place unwarranted stays to obstruct this case.
Under Rule 24, (3), petitioner had prior approval to move forward Forma Pauperis
and did not need any further affidavit to file an appeal in the Ninth Circuit. This is a
pattern of petitioners cases that are not related whatsoever. The California judge’s
have shown a complete disregard for the petitioners victim status under Article 1
Declaration of Rights, as petitioner clearly stated in petitioners original complaint.

7. Whether all Federal orders should have been VACATED, as requested by petitioner,
and the California Court failed to acknowledge the extended case time frame during a
global pandemic with intentional obstruction in this case, as the petitioner had no control
over the courts time, and petitioner has rights to a fast trial per the Bill of Rights under
Domestic Violence assault victim laws, including Marsy’s Law and Article 1 of the
California Constitution under Financial abuse.
The orders were not posted or mailed in the time frame to file under Rule 59 and 60,
including violations of the United States Constitution with no resolve or relief.
Petitioner has rights to be heard under the First Amendment, and to have litigation
overturned with litigation, and amended to correct errors of law. All orders are proof
of error of law, and by taking respondents out of the case and replacing the respondents
back in against oaths of office and canons of ethics by the District Courts judge’s in

14
San Jose, California, and after petitioner wrote letters and requested by motion to
reconsider, and petitioned to have one new honorable judge to hear the case, but
the District Court judge refused to recuse, and stated complete untruths. This happened
in both cases, so the judge has a bias towards petitioner, and the Magistrate was furious
that I was stating bar members as defendants, now respondents. Federal offenses are
automatic disbarment, but these respondents self admitted to all in writing, and continued
after years of bad faith litigation. Petitioner was fair, worked in good faith and exhausted all
remedies available with no avail. The respondents willingly, knowingly and intentionally
committed crimes and violated all of petitioners rights while causing emotional and more
financial stress, which falls into punitive damages to the petitioner to date. Respondents took
many vacations and used vacation time as excuses not to comply or return petitioners
property and contents of the midrise. See Scheidler v National Organization For Women,
547 U.S. 9 (2006), (NOW) argued that acts of physical violence are sufficient to establish a
Violation of the Hobbs Act, which pertains to this case of extorting petitioners mid rise with by
force. Hobbs Act Federal Law, under 18 U.S.C. § 1951, is a U.S. Federal law enacted in 1951
also proscribes conspiracy to commit robbery and extortion without reference to the
Conspiracy statute at 18 U.S.C. § 371. Mortgage Conspiracy has a ten year statute,
and up to 30 years in Federal prison. Troxel v Granville. Pg 99-138 (2000) also applies
for not offering Due Process to petitioner at any time by law against petitioners Fourteenth
Amendment Right. Marsy’s Law in twelve states now protects petitioner from any
harassment, and across state lines into California from Texas.

8. Whether the Federal District Courts in California failed to offer petitioner Proper
Procedural Due Process, failed to acknowledge No Due Process by respondents
while respondents created false and misleading statements in Court and Financial
Documents Under the color of law in Texas, and unlawfully obtaining petitioners
personal property, including Heirloom furniture against petitioners will in exchange for
commerce.

Petitioner was not offered Due Process by respondents when filing vexatious
motions in Texas, and failed to serve petitioner, and failed to call for hearings. The
State judge refuse to allow petitioner time for counsel against petitioners Six Amendment
Right and continued to place outrageous number of motions and hearings knowing the
Petitioner lived out of state and could not come to court. The petitioner stated there were
no hearings after counsel was allowed out of the case with no notice and against
petitioners denial because of no counsel, and after approximately thirty lawyers refused
to get involved knowing this case was old and vexatious. The Federal District Court did
not serve respondents, and petitioner served an appeal to all respondents with no
response from respondents. Petitioner filed a Default Judgement and was ignored by
The Ninth Circuit Court of Appeals. The California Courts offered No Procedural Due

15
Process against petitioners Fourteen Amendment Rights, and ignored Rule 60, which the
Petitioner requested before being forced to file a petitioner for writ in the United States
Supreme Court. There was Conspiracy to commit fraud, Rule 60 and 59 apply,
including violating petitioner Fourteenth Amendment Right and Right to Procedural Due
Process. Procedural Due Process refers to the Constitutional requirement that when the
Federal government acts in such a way that denies a citizen of a life, liberty, property
interest, the person must be given notice, the opportunity to be heard, and a decision by
a neutral decision maker. Rule 1.6 applies due to failure to disclose a material fact to avoid
Assisting a client in a criminal act or fraudulent act, subject to the lawyer’s duties, under Rule
1.6 and Business and Professions Code Section 6068 (e). The Federal District Court judge
was sent the proof attached, and stated that petitioner did not mention anything wrong, which
is false, and the Ninth Circuit failed to acknowledge Federal Crimes and violations of
Petitioners Rights, especially Due Process and Procedural Due Process, Rights Guaranteed
: Privileges of Citizenship. The privileges “ must be” in a case dealing with negligent state.
Failure to observe a procedural deadline. Under Section 1, No. 760, Thus, the notice of
hearing and the opportunity to be heard “ must be granted at a meaningful time and in a
Meaningful manner", which did not occur in this case. (2) Hearing. Some form of hearing
is required before an individual is finally deprived of a property or liberty interest”. There was
no hearing, and the orders are ruled on error in jurisdiction and failure of Due Process.
The violations proved to be unjustified in their actions and caused injury to petitioner in
numerous ways that fall under punitive damages being awarded to petitioner as requested
within thirty days of a ruling. See, Carey v Piphus, ruled 8-0 on March 21,1978 the courts
held that Piphus was entitled to “ substantial non punitive” damages because their
procedural due process rights were violated.

9. Whether the petitioner should be awarded a filed Default Judgement after serving all
respondents per the Ninth Circuit Court of Appeals Court Order TIME SCHEDULE
date, and the Ninth Circuit then failed to acknowledge a filed motion by petitioner for
a hearing to discuss prior to a final order and mandate against petitioners First
Amendment Rights.

Petitioner filed a default judgement within thirty days after respondents did not
respond to service by petitioner by United States mail. The Ninth Circuit Court
of Appeals did not honor a motion filed for a hearing, and sent a mandate without
offering petitioner twenty eight days to file any response or petition for Writ of
Certiorari. The petitioner had five days after the courts drug the time out to file
stamp and enter the judgement, which was during a pandemic, and after the case
remained pending for over a year. Petitioner feels this was intentional due to many
reasons, including being pro se and bias. Covid backed the courts up and all were
working low staff, but this had nothing to do with petitioners timeframe, and petitioner
was violated by all Rights unfair and unjust.

16
10. Whether the California District Court judge intentionally ignored Fiduciary Theft by Texas
respondent, Margaret Poissant, Esq., which was documented in the petitioners original
Federal complaint, and after the California District Court judge viewed evidence of self
admittance of Conspiracy and Fraud by this respondent who was running for Judgeship
in Texas at the time of the civil state case. This also involved respondents, Sarah Vida,
Esq. and manager of Tanglewood Condominium Owners, involving checks placed in
Margaret A. Poissant, Esq. name after the original checks were written in petitioner's name.
Note: The state judge, Honorable Steve Kirkland is now a Federal judge, but not at the time
of the civil state case when he willfully and maliciously released petitioners property title to a
bankrupt LLC when the title was in Audrey L. Kimner’s name, and involving multiple Judicial
canon violations.

Respondents participated in withholding, changing checks, and took petitioners funds
in and out of escrow unlawfully. Respondents named in question 10 refused to respond,
and intentionally while knowingly took the funds. The funds were sent to escrow at a
Different firm with a different address. The manager of the Tanglewood Condominium
Owner, respondent, was belligerent when questioned by petitioner about the change of
Names and amounts on the checks and Matt refused to help, and hung up on the petitioner.
Fiduciary theft under penal Code § 32.45 states Misapplication of Fiduciary Property or
Property of Financial Institution. (1) (B) an attorney in fact or agent appointed under power
of attorney. Margaret A. Poissant was petitioners attorney of record when this happened,
and the other respondents were defendants who worked in bad faith, including an unlawful
Mediation in Texas. Petitioner had to quit her job, drive to Houston, and lost everything due
to Conspiracy to commit Mortgage Fraud and Fiduciary Theft. Petitioner was ignored after
being threatened and harassed while told untruths and outrageous comments of abuse.
Petitioner filed grievances with the Texas bar two months prior to anyone leaving the case,
and was ignored, which drug out for months. The Texas Ombudsman covered for all
respondents with no regard for the law, nor for petitioners property, along with all
respondents. This abuse was overwhelming and in the middle of assault financial abuse,
and all respondents took full advantage of petitioners situation and property with profiting
for themselves in every way and ongoing, while acting recklessly, intentionally and
Knowingly to misuse funds and a property that belonged to petitioner with a clear title
prior to the fraud closing. Plaintiff had the right to possess the property and still held
Title. This CIVIL WRONG, as stated by the Supreme Court, must have proof of a “ culpable
state of mind”, with a “ knowledge of, or gross recklessness in respect to the improper
nature of the relevant fiduciary behavior. Petition has witnesses and has documented all
strange behavior of all to the Texas bar prior to a trial date in ample time, August of 2018.
See Bullock v BankChampaign, 569 U.S._(2013), by unanimous decision.

17
CONCLUSION
Petitioner would like the Supreme Court to honor petitioners Default Judgement due to all
respondent’s ignoring the Ninth Circuit Time Scheduled Order, and wasted the courts time.
Capital Title of Texas was involved, self admitted to owing petitioner money with interest.
Capital Title and their lawyer had several insurance companies to cover the fraud closing, and
could have started over with proper closing documents as petitioner requested. Petitioner gave
all a chance to pay at a loss to petitioner three years ago, and respondents cost petitioner
millions in losses of business, credit, business furniture, and profited with knowledge of
petitioners financial abuse situation. Petitioner was told to return a new Mercedes when the
petitioner's car was almost paid off. Petitioner's car was repossessed due to respondents failing
to return petitioners money or property. Petitioner feels two million is fair for what has transpired
unlawfully. Petitioner experienced horrendous embarrassment for having to have a car
repossessed while having a 800 plus credit score. The car company has now placed false fees
on petitioners credit, and cost petitioner the ability to rent, and without a job for having to quit to
take time to play legal games, wasting money and time. Their offenses are multi millions in
fines, not including jail and disbarment for a felony, including Fiduciary Theft. Fraud also caused
a mess with the IRS, and the petitioner has no documents upon request to date. There is no list
of expenses and monies earned on renting petitioners property for profit. Petitioners request a
fair trial, or judgement so the petitioner can move on. Petitioner deserves punitive damages
within thirty days of judgement. This fraud has forced petitioners out in the street and in terrible
situations. The respondents are in business together, and self admitted this fact and intentional
obstruction. The Texas judge was disrespectful about Mark Sandoval, Esq., and his personal
issues with Mark, which has nothing to do with petitioners mid rise, as petitioner had to endure
his horrendous disdain for petitioners counsel. Mark's death is questionable now after being
treated horrifically by all respondents.The threats and intimidation towards petitioner speaks
volumes, federal offenses, and petitioner was not the only homeowner involved in fraud in TX.
Petitioner requests resolve, and has no criminal record, no abuse of any kind and is a U.S.
citizen.

18
JUDGES ERROR OF LAW
Petitioner petitioned the District Court judge recuse himself after depriving petitioner of
First Amendment Rights to be heard, failing to offer Proper Procedural Due Process and
tampering with respondents. Petitioner feels this judge is biased, worked ex parte, and he ruled
differently on two similar cases, which proves petitioners had a valid complaint to petition this
judge to recuse. Petitioner has Rights to overturn bad faith litigation with litigation by law, and
has never met this judge, nor any other judge. The canon of ethics were not followed and
crimes were obstructed. This case has been intentionally continued and unlawfully set aside for
over a year, which has left petitioners without relief during a global pandemic.
Canons violated: 1,2, 2.3, 2.9, 3, 3.5.

The petition for Writ of Certiorari should be granted.

Respectfully submitted by:

AUDREY L. KIMNER, Petitioner, Pro se
P.O. Box 1493
Carmel, CA 93921
843-754-1543
audreykimnerl 0@gmail.com

